So
I

C@OCKLE

2311 Douglas Street

i E-Mail Address:
Omaha, Netra 68102-1214 Legal Briefs cominchevettloeatefscom
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-454
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ETAL,
Petitioners,

Vv.
COMMONWEALTH OF PENNSYLVANIA AND
STATE OF NEW JERSEY,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of December, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED
To be filed for:
GURBIR S. GREWAL JOSH SHAPIRO
Attorney General Attorney General
State of New Jersey Commonwealth of Pennsylvania

GLENN J. MORAMARCO
Assistant Attorney General
ERIC L. APAR

Deputy Attorney General
Office of Attorney General
25 Market Street

P.O. Box 112

Trenton, NJ 08625

(609) 376-3235

MICHAEL J. FISCHER*
Chief Deputy Attorney General
AIMEE D. THOMSON
JACOB B. BOYER

Deputy Attorneys General
Office of Attorney General
1600 Arch Street, Suite 300
Philadelphia, PA 19103

(215) 560-2171
mfischer@attorneygeneral.gov
* Counsel of Record

Subscribed and sworn to before me this 9th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska . Ls ,
My Commission Expires Nov 24, 2020 a

Notary Public Affiant

 

 

39154
SERVICE LIST

Trump et al. v. Pennsylvania, et al., No. 19-454

Noel J. Francisco

Counsel of Record

Solicitor General of the United States

Room 5616

United States Department of Justice

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

(202) 514-2217

SupremeCtBriefs@USDOJ.gov

Counsel for Petitioners Donald J. Trump, President of the United States, et al.

Mark Leonard Rienzi

Counsel of Record

The Becket Fund for Religious Liberty

1200 New Hampshire Ave., NW

Suite 700

Washington, DC 20036

(202) 349-7208

mrienzi@becketlaw.org

Counsel for Respondents The Little Sisters of the Poor Saints Peter and Paul Home
